UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




           Budget Submission Case
              Processing Data


               Report No. OIG-AMR-58-08-02




                                             September 2008
INSPECTOR GENERAL




                NATIONAL LABOR RELATIONS BOARD

                        WASHINGTON, DC 20570

September 3, 2008,

I hereby submit an audit on Budget Submission Case Processing Data, Report
No. OIG-AMR-58-08-02. This audit was conducted to evaluate the process
used to develop case intake and related employee requirements for annual
budget requests and to compare forecasted amounts to actual figures.

We found that the Budget Branch is not using the procedures that are set forth
in the Administrative Policies and Procedures Manual, Chapter BUD-1, Budget
Planning and Operations, or the Budget Branch's desk manual in developing
the case intake and related requirements for the annual budget requests. We
also found that the current year estimates and future budget year forecasts in
those reports generally exceed the actual case intake.

Although the task of forecasting the future is an imprecise art, the Agency
established a fairly reasonable and transparent method of arriving at its
reported figures. This method included input and intake estimates from
Regional Directors. Also, a summary of the Regional Director's submission and
the Budget Branch’s analysis were to be submitted to the Chairman and
General Counsel for revision and approval before the budget requests were
prepared.

This process was abandoned by the Agency after 1996 when the Budget
Branch retired its desk manual. The Budget Branch now uses a more
abbreviated approach to its analysis that lacks supporting documentation as
well as the revision and approval by the Chairman and the General Counsel.

When we attempted to recompute the current year estimates for the years 2000
to 2007 using the Budget Branch’s stated method of “annualizing” the actual
intake for the first three quarters of a fiscal year to arrive at the estimate for
the fourth quarter, we came up with different results. Because the Budget
Branch did not create and maintain documentation on how it arrived at its
current year estimates, we cannot reconcile the figures. We know, however,
                                       TABLE OF CONTENTS

BACKGROUND ......................................................................................1

OBJECTIVES, SCOPE, AND METHODOLOGY ........................................2

FINDINGS ..............................................................................................3

CASE INTAKE CALCULATION PROCESS ................................................3

CASE INTAKE CALCULATION RESULTS ................................................4
  Current Year Estimates .......................................................................4
  Future Budget Year Forecasts .............................................................6
COMPARISON OF CASE INTAKE TO FTE ...............................................7

RECOMMENDATIONS............................................................................8

APPENDIX

        Memorandum from the Budget Branch Chief, Draft Report "Budget
        Submission Case Processing Data" (OIG-AMR-58), dated August
        29, 2008
                                BACKGROUND

The National Labor Relations Board (NLRB or Agency) administers the principal
labor relations law of the United States, the National Labor Relations Act
(NLRA) of 1935, as amended. The NLRA is generally applied to all enterprises
engaged in interstate commerce, including the United States Postal Service, but
excluding other governmental entities as well as the railroad and the airline
industries. The Fiscal Year (FY) 2008 appropriation authorized 1,690 full-time
equivalents (FTE) that are located at Headquarters, 51 field offices throughout
the country, and 3 satellite offices for administrative law judges. The NLRB
received an appropriation of $256,238,000 for FY 2008, less a rescission of
1.747 percent, leaving a net spending ceiling of $251,762,000.

In June of each year, the Agency begins the process of preparing a Performance
Budget Request in accordance with the guidance issued by the Office of
Management and Budget (OMB). The data provided in the request includes a
significant amount of information related to case intake, output, and staffing
requirements for the entire Agency and each office. The request provides an
estimate for the current year, based on partial year data, and forecasts for the
next 2 years. For example, the FY 2009 request, prepared in FY 2007, included
an estimate of case intake based on the current trend for FY 2007 and
forecasts for FY 2008 and FY 2009.

The Budget Branch (Budget) obtains current year case processing data from
the different program offices, which Budget uses as the basis for its own intake
estimates. The program offices also provide qualitative information about items
that may have an impact on case intake, such as changes in labor law.

The Performance Budget Request is provided to the General Counsel and the
Board for their review and approval in August. The request is due to OMB on
the second Monday of September. Upon receiving OMB's approval, the Agency
prepares a Justification of Performance Budget for Committee on
Appropriations (Congressional Budget Justification) to explain its budget
request to the responsible congressional committees. The President transmits
the budget, which includes data provided by the Agency in the Performance
Budget Request, to Congress on the first Monday in February. The Agency
separately transmits its Congressional Budget Justification.




                                       1
                OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit are to evaluate the process used to develop case
intake and related employee requirements for annual budget requests and to
compare forecasted amounts to actual figures.

We reviewed guidance from OMB regarding preparation of budget materials,
including Circular A-11, Preparation, Submission, and Execution of the
Budget. We reviewed Administrative Policies and Procedures Manual (APPM)
Chapter BUD-1, Budget Planning and Operations, dated May 3, 2006, and
Budget's desk manual, dated June 24, 1991, to identify internal policies and
procedures for budget preparation. We interviewed employees in Budget,
Division of Operations-Management (Operations-Management), Division of
Enforcement Litigation, Division of Advice, and the Office of the Executive
Secretary to identify the processes for preparing case intake estimates.

For Budget Years 2000 – 2009, we obtained the Performance Budget Requests
submitted to OMB and the Congressional Budget Justifications. We evaluated
case intake trends for unfair labor practice cases and representation cases for
the current year and future years for those submissions. These trends
included the intake in the Regional Offices and Headquarters offices
throughout the case handling process. We compared the case intake figures
submitted in the Performance Budget Request with the intake figures
submitted in the Congressional Budget Justification. We also compared the
trends in case intake with the trends in FTE in order to evaluate whether the
trends were consistent with each other.

This audit was performed in accordance with generally accepted government
auditing standards during the period March through July 2008. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives. We conducted this audit at NLRB Headquarters in
Washington, DC.




                                       2
                                  FINDINGS

The current year estimates and the future budget year forecasts of case intake
used in the Performance Budget Request and the Congressional Budget
Justification were not prepared in accordance with Agency policies and
procedures. Instead, Budget used a less formal process that did not obtain
substantive case intake forecasts from the Regional Directors. The estimates
and forecasts provided by Budget generally overestimated the anticipated case
intake. Additionally, Budget did not create and maintain the documentation
for this activity as required by the Agency's Records Disposition Standards.


CASE INTAKE CALCULATION PROCESS

Budget is not implementing the policies and procedures set forth in APPM
Chapter BUD-1 or its desk manual. According to the Budget Chief, the desk
manual has been retired, but not replaced.

As stated in APPM Chapter BUD-1, the estimate should be developed through
the joint efforts of the Regional Directors; the Associate General Counsel,
Operations-Management; and Budget; and reflect each Regional Director's
knowledge of the situation in his/her Region and any national trends, such as
union activity and industrial growth, which would necessitate adjustment in
individual estimates. When in use, Budget's desk manual provided significant
framework for collecting the data and created a transparent process. This
process included obtaining Regional Directors' estimates and comments and
providing Budget's analysis to the Chairman and the General Counsel for their
revision and approval prior to drafting the Performance Budget Request. The
last time that intake estimates and forecasts were requested from the Regional
Directors was in June 1996 for the FY 1998 budget.

Budget currently uses a more informal process to calculate the current year
estimates and future budget year forecasts. The Budget Chief stated that she
receives case intake data from Operations-Management at about the end of the
third quarter and then annualizes that data to determine the estimate of
current year intake. The intake estimate is then adjusted based on the Budget
Chief's judgment and interpretation of the information received from
Operations-Management. The Budget Chief then provides the current year
estimate to the Budget Analysts, who input the estimate into the tables of the
Performance Budget Request. The Budget Chief stated that the supporting
documentation for both the intake calculations and the information received
from Operations-Management is not created or maintained by Budget.




                                       3
Internal control is a major part of managing an agency and is the first line of
defense in detecting errors. The Government Accountability Office's Standards
for Internal Control in the Federal Government state that procedures and all
transactions and other significant events need to be clearly documented, and
the documentation should be readily available for examination. The
documentation should appear in directives, administrative policies, and
operating manuals. Information should also be recorded and communicated to
management in a form and within a timeframe that enables them to carry out
their internal control and other responsibilities.

Without the process that was provided by the Budget's desk manual, APPM
Chapter BUD-1 lacks sufficient details to meet the requirement for internal
controls. APPM Chapter BUD-1 does not have any provisions for
documentation of this process, control over the process for the information
provided to Budget, or top level review, to name just a few of the internal
controls that were once present. The current year estimates and future budget
year forecasts now rely on the skill and judgment of a single official rather than
a concerted effort by senior management officials from across the Agency. The
estimates and forecasts are provided to the Agency's leadership at the end of
the process when the Performance Budget Request is submitted for final
approval before submission. This is a lengthy, bureaucratic document that
contains a vast amount of budgetary data, but lacks any detail on the analysis
or process used in deriving those estimates and forecasts. Because the case
intake estimates and forecasts are not provided in a form and within a
timeframe that allows management to perform a proper review, there is little
opportunity to adjust or detect errors in the analysis.


CASE INTAKE CALCULATION RESULTS

Current Year Estimates

The current year estimates reported in the Performance Budget Request were
generally higher than the current year actual case intake figures reported in
the Congressional Budget Justification, as shown on the following table.




                                        4
                  Comparison – Current Year Intake
   Performance Budget Request and Congressional Budget Justification

                                 Congressional
            Performance             Budget
           Budget Request         Justification
  Year       (Estimate)             (Actual)            Difference      Percent
 2001               33,284                 33,558                -274      -0.82
 2002               34,630                 35,875              -1,245      -3.47
 2003               35,440                 33,738               1,702       5.04
 2004               31,792                 31,780                  12       0.04
 2005               30,024                 29,879                 145       0.49
 2006               29,500                 26,395               3,105     11.76
 2007               26,500                 25,646                 854       3.33

Budget stated that they annualized the current year intake at about the end of
the third quarter to arrive at a yearly estimate, but that they did not create
and, therefore, not maintain supporting documentation. When we recalculated
each year’s estimate by annualizing the first three quarters – this assumes that
case intake in the fourth quarter will be consistent with the prior three
quarters, we did not arrive at the same figures. The following tables compare
Budget’s estimates of the fourth quarter intake and the annual intake with an
annualized estimate.

                Comparison of Fourth Quarter Calculations
              Performance Budget Request and Annualization

         Performance Budget Request                         Annualization
                         Percent                       Percent
          Number of   Variance from                 Variance from    Number of
 Year       Cases         Actual           Actual       Actual         Cases
 2001           7,762         -3.41         8,036            -3.58        7,748
 2002           7,452        -14.32         8,697            -5.14        8,250
 2003          10,324         19.74         8,622            -0.41        8,587
 2004           7,459          0.16         7,447             3.44        7,703
 2005           7,340          2.02         7,195             1.67        7,315
 2006           9,343         49.78         6,238             5.76        6,597
 2007           7,503         12.84         6,649            -5.11        6,309




                                       5
                Comparison of Annual Intake Calculations
              Performance Budget Request and Annualization

         Performance Budget Request                         Annualization
                         Percent                        Percent
          Number of   Variance from                  Variance from   Number of
 Year        Cases        Actual            Actual       Actual        Cases
 2001          33,284         -0.82         33,558           -0.86        33,270
 2002          34,630         -3.47         35,875           -1.25        35,428
 2003          35,440          5.04         33,738           -0.10        33,703
 2004          31,792          0.04         31,780            0.81        32,036
 2005          30,024          0.49         29,879            0.40        29,999
 2006          29,500         11.76         26,395            1.36        26,754
 2007          26,500          3.33         25,646           -1.33        25,306

Because of the lack of supporting documentation, we were unable to reconcile
the differences between Budget's estimates and the annualized figures. At a
minimum, Budget should have memorialized any information provided by
Operations-Management and maintained that documentation for 1 year in
accordance with the Agency's Records Disposition Standards.

Although the current year estimated case intake would not affect the
justification for the appropriation being acted upon, as staff in Budget noted,
that estimate is the baseline for the future budget year forecast. If the current
year case intake is overestimated or underestimated, then the future budget
year forecast will likely follow in the same manner.

Future Budget Year Forecasts

Case intake forecasts are not obtained from the Regional Directors as required
by the Agency’s policies and procedures. Staff in Budget stated that the future
budget year intake forecasts are currently developed based on the current year
estimates and qualitative information, such as legislative changes, obtained
from Operations-Management. Staff in Operations-Management stated that
they provide Budget with anecdotal information about trends in the Regions.
Operations-Management has not issued memorandums requesting Regional
information since 1996.

Budget noted that if there is an increase in case intake during the current year,
they may maintain the increase through the future budget year as long as
there is justification to support the increase. Alternatively, if current year
intake decreases, then Budget will forecast that the future budget year intake
will remain at current levels, unless there is a reason to support an increase or




                                        6
decrease. This process resulted in a lag in the Agency forecasting the extent of
the decrease in case intake.

Comparison of Forecasted and Actual Intake

The forecasted Regional Office case intake in the Performance Budget Requests
overestimated the actual case intake for that year in all years compared. The
trend is shown in the following table.

                 Comparison – Forecasted to Actual Intake

Budget Year       Forecasted      Actual        Difference         Percent
2000                    38,179     32,957               5,222          15.84%
2001                    36,200     33,558               2,642           7.87%
2002*             Not Available    35,875      Not Applicable    Not Applicable
2003                    36,005     33,738               2,267           6.72%
2004                    36,005     31,780               4,225          13.29%
2005                    36,005     29,879               6,126          20.50%
2006                    34,100     26,395               7,705          29.19%
2007                    31,100     25,646               5,454          21.27%

* OMB did not require a submission for the FY 2002 Budget.


COMPARISON OF CASE INTAKE TO FTE

Although FTE levels at the Agency have declined, they have not done so to the
same extent as case intake. For the period from FY 1998 to FY 2007, the
Regional Office case intake decreased by 30 percent. During this period, the
requested FTE level decreased Agencywide by approximately 13 percent and 11
percent in the field offices.

Because the Agency is in a period that case intake is not increasing, Budget
has based the number of projected FTE on the current staffing level instead of
the case intake trend. Staff in Budget stated that requested future FTE levels
will likely continue to be comparable to previous year requests in the absence
of a substantial increase in case intake.

Justifying FTEs based on the current staffing is reasonable. The President's
Management Agenda stated that a significant number of the Government's
current permanent employees will be eligible for retirement by 2010. At the
NLRB, 44 percent of GS 13-15 supervisors and 78 percent of Senior Executive
Service members were eligible to retire as of the end of FY 2007. Given this
situation, it appears appropriate for the Agency to adopt this approach to



                                       7
maintain a staff with the core qualifications and experience to ensure that it
has a workforce that can effectively accomplish its mission.


                             RECOMMENDATIONS

We recommend that the Budget Chief:

1. Either:

   A. Follow the policy in APPM Chapter BUD-1 and readopt the provisions in
      Budget's desk manual regarding the formulation of the intake estimates
      and forecasts in the Performance Budget Request; or

   B. Draft procedures that implement the policy in APPM Chapter BUD-1
      regarding the formulation of the intake estimates and forecasts in the
      Performance Budget Requests. These procedures should have sufficient
      detail to meet the requirements of internal control.

2. Create and maintain the supporting documentation for this activity in
   accordance with the Agency's Records Disposition Standards.




                                        8
APPENDIX
